                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2005 FINANCIAL STATEMENTS

          Audit Report Number 06-01
               October 28, 2005




                       Prepared by:

               COTTON & COMPANY LLP
              635 Slaters Lane, Fourth Floor
                Alexandria, Virginia 22314




 This report was issued to Corporation management on November 14, 2005.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than May 14, 2006, and complete its corrective
 actions by November 14, 2006. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
